BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Naum
Morgovsky and Irina Morgovsky v. United States of
America, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
service and e-mail to the following parties listed below,
this 13th day of May, 2021:
ELIZABETH PRELOGAR
Counsel of Record
SOLICITOR GENERAL OF THE UNITED STATES
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
MATTHEW MARTIN YELOVICH
DOJ-USAO
Assistant U.S. Attorneys
450 Golden Gate Avenue
San Francisco, CA 94102
415-436-7015
matthew .yelovich@usdoj.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

ANNE M. VOIGTS
Counsel of Record
NOAH STID
KING & SPALDING LLP
601 S. California Avenue
Suite 100
Palo Alto, CA 94304
(650) 422-6700
avoigts@kslaw.com
nstid@kslaw.com
MARISA C. MALECK
KING & SPALDING LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
mmaleck@kslaw.com
LAURA LIVELY BABASHOFF
KING & SPALDING LLP
633 West Fifth Street
Suite 1600
Los Angeles, CA 90071
(213) 443-4355
llively@kslaw.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 13, 2021.

tti

Emily ullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

sJ1 Jh/
tk~/2
.

Date:

Notary Public
[seal]

r,rM rRIPl_tTI MORGAN
A'.irJ' ·,e1 at Lctw

hi-Jlary f-'un!i.: St,He til Ohio
My Commission Has No Exp1rat1on

Date. Section 147.03 OR.C.

